<html>
<title> - NOMINATION OF LURITA ALEXIS DOAN</title>
<body><pre>[Senate Hearing 109-618]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-618
 
                    NOMINATION OF LURITA ALEXIS DOAN

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                 ON THE

NOMINATION OF LURITA ALEXIS DOAN, TO BE ADMINISTRATOR, GENERAL SERVICES 
                             ADMINISTRATION


                               __________

                              MAY 22, 2006

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                    U.S. GOVERNMENT PRINTING OFFICE
28-248                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
            Jennifer A. Hemingway, Professional Staff Member
             Michael L. Alexander, Minority Staff Director
         Adam R. Sedgewick, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Pryor................................................     5
    Senator Warner...............................................    17

Prepared statement:
    Senator Lieberman............................................    25

                               WITNESSES
                          Monday, May 22, 2006

Hon. Mary L. Landrieu, a U.S. Senator from the State of Louisiana     3

Hon. George Allen, a U.S. Senator from the State of Virginia.....     4

Lurita Alexis Doan, to be Administrator, General Services 
  Administration:
    Testimony....................................................     7
    Prepared statement...........................................    26
    Biographical and professional information....................    29
    Letter from U.S. Office of Government Ethics.................    39
    Responses to pre-hearing questions...........................    40
    Responses to post-hearing questions..........................    66


NOMINATION OF LURITA ALEXIS DOAN, TO BE ADMINISTRATOR, GENERAL SERVICES 
                             ADMINISTRATION

                              ----------                              


                          MONDAY, MAY 22, 2006

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:02 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Warner, and Pryor.

              OPENING STATEMENT OF SENTOR COLLINS

    Chairman Collins. The Committee will come to order.
    Today the Committee will consider the nomination of Lurita 
Doan to be the Administrator of the General Services 
Administration (GSA).
    GSA is the Federal Government's primary acquisition agency 
and its landlord. Its mission is to ``help Federal agencies 
better serve the public by offering, at best value, superior 
workplaces, expert solutions, acquisition services, and 
management policies.''
    With some 12,000 employees, the GSA oversees spending of 
approximately $60 billion. The Agency also manages more than 
340 million square feet of owned or leased space in more than 
9,000 government-owned or leased buildings, an interagency 
fleet of some 200,000 vehicles, and technology programs and 
products ranging from laptop computers to systems that cost 
more than $100 million.
    To paraphrase the Senator for whom this building is named, 
when we talk about GSA, we are talking about real money.
    This Committee has taken a close look at GSA. From our 
investigations, hearings, and inquiries, we have found that the 
GSA needs to improve its performance to better serve the 
American public. I would like to briefly discuss some of our 
recent work.
    This Committee has held hearings on such troubling matters 
as the dilapidated condition of some Federal real property and 
the wasteful, sometimes fraudulent, use of purchase cards. Our 
investigation of the deterioration of the west campus of St. 
Elizabeths Hospital demonstrated a particularly tragic example 
of how the Federal Government's mismanagement of its real 
property can result in the waste of taxpayer dollars.
    In addition, the Subcommittee on Federal Financial 
Management, under the leadership of Senators Coburn and Carper, 
has examined on-going problems in real property management. For 
example, the Subcommittee has looked into why GSA chooses to 
lease space when many billions of dollars worth of Federal 
property sits vacant. It is no wonder that the GSA's real 
property management remains on the Government Accountability 
Office's list of high-risk projects.
    The Committee's investigation into the use of purchase 
cards also revealed much evidence of waste, fraud, and abuse. 
The fraudulent transactions were alarming. We found purchases 
for all sorts of personal items rather than for official use. 
Equally alarming, however, was the far more widespread waste 
that resulted from Federal employees paying more than the 
discount prices that they were entitled to as a result of 
negotiations between the GSA and vendors. The growth in the use 
of purchase cards has not been sufficiently matched by 
increased oversight on the part of GSA.
    Following that hearing, along with my colleagues, I 
introduced the Purchase Card Waste Elimination Act of 2005, 
which was approved unanimously by this Committee. I hope that 
the full Senate will pass it soon.
    In addition, the Permanent Subcommittee on Investigations, 
which is led by Senators Coleman and Levin, has conducted three 
hearings on Federal contractors who cheat on their taxes yet 
continue to receive Federal contracts. Their most recent 
hearing focused on GSA contractors. More work needs to be done 
to remedy that problem, as well.
    There are also questions about the charges that GSA imposes 
for Federal office space. The Federal judiciary has requested a 
reduction in the rent it pays to the GSA, contending that its 
lease rates are far too high. Legislation that would prohibit 
GSA from establishing rent charges for space provided to the 
Judicial Branch from exceeding the actual costs of operating 
and maintaining such space recently was approved by the 
Judiciary Committee. At a time when all Federal agencies and 
branches of government are confronted by tight budgets, it is 
imperative that the GSA work more cooperatively with the 
Judicial Branch to address this long-standing concern.
    Fortunately, some positive steps have been taken. Two years 
ago the GSA launched its ``Get It Right'' program to improve 
acquisition programs and to ensure compliance with policy, 
regulations, and procedures. This Committee recently approved 
the GSA Modernization Act, which would merge the Federal Supply 
Service and the Federal Technology Service to create a 
streamlined Federal Acquisition Service. This should result in 
improved buying power for GSA with respect to its purchase of 
information technology solutions. To ensure the success of 
these undertakings, however, committed, determined leadership 
will be necessary.
    Our nominee today brings a solid background to the 
important position for which she has been nominated. Ms. Doan 
founded the New Technology Management Company in 1990 and grew 
it from a one-person firm to an impressive business with 
government contracts valued at more than $200 million annually 
before selling the company last summer.
    Ms. Doan would bring to this position more than 15 years 
experience working with GSA as a contractor. I think it is very 
helpful that we have an individual with private-sector 
experience who has actually done business with the Federal 
Government, knows the process, knows the obstacles, and I hope 
will help make government business more attractive to the 
private sector which serves us all well.
    She has worked with the Agency as a member of the GSA's 
Small Business Advisory Council. She has received numerous 
awards for her work, including GSA's Circle of Excellence 
Award, the Department of Commerce's Award for Entrepreneurial 
Innovation, and the Small Business Administration's Outstanding 
Woman Entrepreneur Award.
    Incidentally, and I see our colleague, Senator Landrieu, is 
here, Ms. Doan was born and raised in New Orleans and, in fact, 
comes from the 9th Ward. Members of this Committee have twice 
visited New Orleans and the 9th Ward, and we know that her 
neighbors, family, and friends are very proud to see her here 
today.
    I welcome Ms. Doan to the Committee, and I am very pleased 
to see that we have two of our colleagues who are here today to 
introduce her. I am trying to recall whether Senator Landrieu 
outranks, by seniority, Senator Allen.
    Senator Allen. I will be happy, Madam Chairman, for you not 
to have to make a decision. I will defer to Senator Landrieu.
    Chairman Collins. Thank you. Senator Landrieu, we are 
pleased to have you here.

  TESTIMONY OF HON. MARY L. LANDRIEU, A U.S. SENATOR FROM THE 
                       STATE OF LOUISIANA

    Senator Landrieu. I thank you, Madam Chairman, and I thank 
you for your interest and terrific work, as I have said many 
times privately to you and I want to say publicly today, and 
your focused effort for the recovery of Louisiana and the Gulf 
Coast effort and all the work that you have done through this 
Committee and others.
    It is a real joy for me, Madam Chairman, to be here with my 
friend and a distinct pleasure, as well, to introduce you to a 
friend and an outstanding young woman who I have had the 
pleasure to know now for many years. We actually were graduates 
of the same high school and have known each other since we were 
teenagers. She was outstanding then and has just continued an 
extraordinary career to be outstanding in her field.
    As you know, because you might have even visited or know of 
Ursuline Academy in New Orleans, which is one of the oldest 
girl's schools in America, is where the two of us graduated 
from. Lurita was, as you noted, from originally the 9th Ward. I 
am from uptown. But this was a school that girls from many 
parts of the city came to, and it was a great leadership 
opportunity that we are both very grateful for.
    In school, as when she got out of school, Lurita did not 
stand on the sidelines. She was in the vanguard of African-
Americans that integrated the Catholic school system in New 
Orleans, and she used her considerable skills not only to drive 
a path for herself but for many young women who have followed 
after her.
    She started this tremendous company with her own creative 
spirit and energy, New Technology Management. It is one of the 
few multimillion-dollar female minority-owned businesses, or 
earliest in the country. She has been awarded so many awards, 
but just to name a few she was in the class of 50 Women Who 
Mean Business by the Washington Business Journal. She was the 
2004 recipient of the National Women's Business Council Award 
for Entrepreneurship. She was the 2003 recipient of the 
National Director's Award for Entrepreneurial Innovation and 
the organization that she has been nominated by the President 
to head, she has also received an award from them, in their 
2004 Circle of Excellence.
    But besides all of these outstanding honors for creating 
this company and leading it to complete success, she has also 
been very active, Madam Chairman, in the community. She has 
played a leading role in the American Red Cross. She has helped 
with the D.C. Rape Crisis Center, Muscular Dystrophy 
Association, Cystic Fibrosis Foundation, only to name a few.
    This is not any surprise to those of us who have known 
Lurita. From her early days, she has been busy at work serving 
her community for as long as we can remember. And I think the 
President and our country will be well served in Congress by 
having someone of this distinction heading up an organization 
that can do so much good as it tries to operate efficiently, 
effectively, and respectfully in the communities in which our 
buildings and properties sit throughout the Nation.
    So it is with a great deal of pleasure that I am with 
Lurita today and highly recommend her for this position.
    Chairman Collins. Senator Landrieu, thank you very much for 
that strong endorsement. Your words carry great weight with 
this Committee, and we appreciate your taking the time to be 
here.
    Senator Allen, welcome. It is great to have you here, as 
well.

 TESTIMONY OF HON. GEORGE ALLEN, A U.S. SENATOR FROM THE STATE 
                          OF VIRGINIA

    Senator Allen. Thank you, Madam Chairman. I am also glad to 
see one of my colleagues, Senator Pryor, here.
    It is my pleasure to introduce to the Committee the 
President's nominee for Administrator of GSA, Lurita Doan, who 
is now a resident of Great Falls, Virginia. She came up a 
little further than Louisiana.
    At any rate, listening to your comments and Senator 
Landrieu's comments, I have just been crossing out paragraphs 
of accolades here.
    What I thought was great, Madam Chairman, is that while 
Senator Landrieu was talking about Lurita Doan, I looked back 
and saw Natalia and Alexandra, her two daughters here, looking 
at their mother with great pride. They are both here with us, 
as well as her wonderful husband, Doug. It is an important day 
for her family, but also an important day for, I think, this 
country that someone with the background of Lurita Doan has 
been nominated.
    She has a proven record of performance. I am here to offer 
my very strongest support for Ms. Doan's nomination.
    The job, and you were going through it, Madam Chairman, of 
the GSA. I applaud you for your efforts to knock out waste, 
fraud, and abuse. This is a position that has a great deal of 
importance to the taxpayers of this country. It is important 
for the services that our government, the owners, who are the 
taxpayers, for those services.
    And it is also a very important agency for the taxpayers, 
in that you want more competition. Particularly for small 
business owners. Small business owners who may be men or women, 
but making sure that they have the opportunity to compete for 
those contracts to provide those services to the American 
people. And Lurita Doan, obviously with all of the awards that 
she has been given, understands from an entrepreneur or from a 
small business person's point of view how daunting that task 
can be. To get the performance bonds and making sure the 
contracts are disaggregated in such a way that small businesses 
can have that opportunity to compete.
    Of course, everyone is talking about all of these awards. I 
will not repeat the awards that you and Senator Landrieu 
mentioned. It should be mentioned that in 1990 she started off 
this small business by going to Kinko's with $25 to create her 
stationery and business cards. That is the entrepreneurial 
spirit, that Horatio Alger-type story that we love to see can 
still be achieved here in this country.
    So I will not repeat all of the comments and awards, but I 
know Lurita Doan and have known her for several years. She is 
smart. She is vivacious. And she is going to bring energetic 
leadership to GSA, which will benefit the taxpayers. It will 
also be a position in which, with her leadership and 
understanding of how these contracts work, we will get more 
competition, which means more bang for the buck for the 
taxpayers.
    I appreciate her creativity and her willingness to serve 
our country and also the wisdom of President Bush and his 
Administration to seek out a person of such outstanding 
credentials and character.
    I hope that this Committee will move as quickly as is 
practicable, as well as on the Senate floor, so that Ms. Doan 
can get on the job for America.
    I thank you, Madam Chairman, for having this hearing.
    Chairman Collins. Thank you very much for your eloquent 
words. Your endorsement also means a great deal to this 
Committee.
    I want to thank both you and Senator Landrieu for taking 
the time to be here today. I know you both have busy schedules 
so I am going to excuse the two Senators at this point before 
turning to my colleague, Senator Pryor, for his opening 
remarks.
    Senator Allen. I would only add one thing, Madam Chairman. 
Since I see Senator Warner's staff here, Conrad, my endorsement 
is also echoed by Senator John Warner as well, for the record.
    Chairman Collins. Thank you.
    Senator Pryor, it is great to have you here today and 
acting as the ranking Democrat for the Committee.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Madam Chairman.
    I do have a statement I would like to submit for the record 
if that would be agreeable.
    Basically we know that GSA is a very important agency. We 
are certainly excited to look at your nomination and look at 
your credentials and we will have some questions. But I am 
going to leave plenty of time for Ms. Doan to do questions and 
answers, and I would like to hear from her. Thank you.
    [The prepared statement of Senator Pryor follows:]

                  PREPARED STATEMENT OF SENATOR PRYOR

    Madam Chairman Collins, I thank you for holding this important 
hearing today. The GSA Administrator is one of the most important jobs 
in the Federal Government. The position can best be characterized as 
being the Federal Government's landlord, with oversight for leasing 
thousands of government facilities in addition to serving as the 
government's purchasing agent responsible for procuring hundreds of 
thousands of goods and services through its GSA supply schedule.
    GSA is also supposed to ensure that it provides economic efficiency 
to all of its customers. This requires detailed administrative 
management, to develop the necessary performance measures and 
coordinating mechanisms to ensure that GSA provides the fastest, lowest 
cost and most efficient means of procurement to its Federal customers.
    In this era of terrorism and catastrophic disasters, GSA plays a 
critical role as a partner with Federal, State, and local agencies to 
provide disaster assistance. I understand that GSA has an Office of 
Emergency Preparedness which will coordinate this important role. I 
encourage you, as you begin your role as GSA administrator, to ensure 
that GSA has a strategic plan that provides the necessary help to 
protect Federal properties and employees in the case of a disaster.
    Ms. Doan has many years of experience in the business community. As 
a former GEO, she understands the role that innovation and competition 
play in the marketplace. And I believe that her experience, skills and 
knowledge of best business practices will enable her to tackle tough 
issues in a bipartisan manner. Lurita Doan founded her small IT company 
by walking into a Kinko's store with $25 to print business cards and 
stationery. That was 13 years ago. In 2004, Lurita's company, New 
Technology Management, Inc. (NTM), performed on government contracts 
valued at $214 million. In 2005, her company provided turnkey solutions 
including design, installation and maintenance of all secure 
surveillance technology currently being deployed at over 85 percent of 
all the Land Border Ports of Entry on the U.S.-Canadian and U.S.-
Mexican borders.
    I hope that she will use her experience to address a number of 
challenging issues confronting GSA today, among them the DOD challenge 
to procurement procedures and the Federal judiciary's request for rent 
reduction.
    I look forward to hearing Ms. Doan testify today and hope that as 
the GSA administrator, she is instrumental in bringing about a culture 
of change to an agency that plays an important role in the Federal 
community. In light of the need for effective managers, especially in 
the area of procurement, it is extremely important to be well versed in 
government operations. Ms. Doan has been well recognized for her work 
with the Federal Government and has received a number of awards for her 
work, including the General Services Administration's Circle of 
Excellence Award, as well as the Award for Entrepreneurial Innovation 
from the Department of Commerce.
    Ms. Doan, I look forward to working with you.

    Chairman Collins. Thank you.
    Lurita Doan has filed responses to a biographical and 
financial questionnaire. She has answered pre-hearing questions 
submitted by the Committee and had her financial statements 
reviewed by the Office of Government Ethics.
    Without objection, this information will be made part of 
the hearing record, with the exception of the financial data 
which are on file and available for public inspection at the 
Committee offices.
    Our Committee rules require that all witnesses at 
nomination hearings be sworn in and give their testimony under 
oath. So Ms. Doan, if you would please stand so I can 
administer the oath.
    Do you swear that the testimony you are about to give will 
be the truth, the whole truth, and nothing but the truth, so 
help you God?
    Ms. Doan. Yes.
    Chairman Collins. Thank you. Please be seated.
    Ms. Doan, I know that Senator Allen referred to family 
members that you have with you, but I want to give you the 
opportunity to present them formally to the Committee, as well 
as to introduce any other people who you wish us to be aware 
of.
    Ms. Doan. Thanks, I appreciate that. First, my husband, 
Doug Doan.
    Chairman Collins. Welcome.
    Ms. Doan. My daughter, Alexandra. She is a seventh grader 
at Cooper Middle School. She is a little shy. And this is my 
daughter Natalia. She is a senior at Madeira and will graduate 
on Saturday.
    Chairman Collins. We are very happy to have you here today. 
Does this mean that you are both skipping school to be here?
    Ms. Doan. Well she is out because they finished exams. But 
yes, actually Alexandra is skipping school but they thought it 
was an excellent reason.
    Chairman Collins. I think this qualifies as an excused 
absence and an opportunity not only to be here to support your 
mother, but to see democracy and the U.S. Senate at work. So we 
welcome both of you, as well as your husband, today.
    Ms. Doan. If I could just say three more names. My very 
good old friend from Committee of 200, Edie Fraser. And my 
first mentor ever, Carleton Jones. And then my good friend, Bob 
Guerra.
    I do not know who everybody else is.
    Chairman Collins. Well, I can tell you that looking out to 
the audience, I can see that you have a lot of strong support 
there because I see a lot of smiles. We are very pleased to 
have those who are so close to you present today.
     I would ask that you proceed with your statement.

   TESTIMONY OF LURITA ALEXIS DOAN,\1\ TO BE ADMINISTRATOR, 
                GENERAL SERVICES ADMINISTRATION

    Ms. Doan. Thank you. Chairman Collins, Members of the 
Committee, good afternoon.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Doan appears in the Appendix on 
page 26.
---------------------------------------------------------------------------
    I am honored to come before you today as President Bush's 
nominee to lead the General Services Administration and as the 
first woman to be nominated to hold this position. The 
Administrator of the GSA is an important position of trust, and 
I value the President's confidence in me.
    I would like to thank Senator Allen for his generous 
introduction and friendship and for his years of work as my 
former governor and as the senator from Virginia. I would also 
like to thank Senator Landrieu, one of the graduates of 
Ursuline Academy. From one graduate to another, her gracious 
introduction was way beyond what I had expected. And her 
commitment to revitalization in the Gulf Coast is really 
commendable.
    I just want to say to Mary and our beloved New Orleans that 
Ursuline rules.
    On a more formal note, thank you, Chairman Collins and 
Members of the Committee. I would also like to thank the 
Committee staff for the time, the consideration, and the open 
exchange of ideas shared during this nomination period.
    I am new to the Senate confirmation process and I was 
really heartened by the warmth, concern, and enthusiasm shown 
by every single person I met with on this Committee. If 
confirmed, I look forward to working closely with all of you 
regarding matters with the General Services Administration.
    And to the former Administrator of GSA, Steve Perry, I 
would like to extend warm thanks and commend him for his 4\1/2\ 
years of service to GSA and our country.
    But none of my efforts or successes would have meant so 
much without my two girls, Natalia and Alexandra, who provide 
my inspiration daily and make me want to be a better role 
model. And I would like to thank my husband, Doug, for two 
decades of encouragement and support. I have to let everybody 
know that we celebrated our 20th anniversary last week.
    Madam Chairman and Members of the Committee, I have spent 
the last 15 years leading both for-profit and not-for-profit 
organizations. I remain an unabashed entrepreneur and believe 
strongly that an organization either succeeds or fails based on 
its ability to inspire personal initiative and get people to 
work together toward common goals.
    If confirmed, I will work diligently to create a culture of 
excellence at GSA that approaches its Federal and private-
sector customers as an entrepreneur would, with energy, a 
willingness to innovate and change while delivering superior 
service.
    GSA and its employees have a very proud history, and I 
believe it can forge an important future as the premier 
government contracting agency for property management and 
procurement.
    I have worked with GSA for over 10 years, and I have had 
the opportunity to understand this organization the way a 
customer views it. I know many of GSA's challenges and know 
many of the people working to overcome these challenges.
    More importantly, I am ready to lead this Agency forward. 
If I am confirmed, I would set the following goals: Return to 
President Truman's original vision for GSA as a clean, 
responsive purchasing agency utilizing best practices in 
government contracting, serving as an example and a resource to 
other agencies. Establish quantitative performance metrics to 
show how GSA services stack up. Sell GSA services. I believe 
that GSA can work to provide services quantifiably better, 
faster, and save taxpayer dollars. GSA must do a better job of 
proving this to its customers and thus enabling government 
agencies to refocus scarce management and contracting resources 
on core issues.
    Make GSA one of the best places to work in government. I 
will welcome and encourage new ideas and aggressively recruit 
gifted, talented people into government service.
    I have seen firsthand that GSA often spends less time 
directly with its government customers, and it is no secret 
that GSA has some fence-mending to do with some of its biggest 
clients. If confirmed, I intend to make this a priority and 
will emphasize the service in the General Services 
Administration.
    But Federal agencies are not GSA's only customer. 
Businesses, both large and small, often bring government 
customers to GSA and rely upon GSA's assistance in finding the 
correct contracting vehicle.
    I am also eager to improve GSA's response in emergencies. I 
am from New Orleans and the 9th Ward, as you heard, and my 
childhood home was completely destroyed, as was every other 
home in a two-mile radius. I know that Hurricane Katrina 
created challenges for every government agency, including GSA. 
And if I am confirmed, I will be focused on improving GSA's 
ability to respond quickly when the next emergency arises.
    GSA's ability to leverage the power of the private sector 
and quickly contract for goods and services can make an 
enormous difference for people in distress during times of 
national emergency.
    I am a strong believer that government should do a better 
job of tapping the energy and creativity of America's small 
businesses. Many of the products and innovative and 
transformational solutions that the government seeks are found 
in the small business community, and the GSA schedule is often 
the first government contract for these businesses.
    If confirmed, I will work to expedite the time required to 
award a GSA schedule.
    I welcome the opportunity, if confirmed, to oversee the 
reorganization of FAS, the Federal Acquisition Service. 
Regardless of size, reorganizations are not easy, for they 
strike at the core of what constitutes the mission, the 
position, and the stability of each employee. The 
reorganization though, properly executed, can result in a 
stronger GSA, able to offer faster contracting services at a 
lower cost and yet fully compliant with existing procurement 
regulations. And while it is true that Rome was not built in a 
day, every action does begin with but a single step. There are 
24 hours in a day, 25 if you skip lunch, but I intend to make 
every moment count.
    Success in business and government is often a function of 
the quality of the people and the level of effort expended. I 
have always respected GSA employees' commitment to work, their 
ethic, and their willingness to serve. If confirmed, I look 
forward to working again with many of these fine people and the 
rest of GSA's dedicated personnel while having the opportunity 
to lead by example, providing transparency and clear guidance 
to GSA's employees.
    By making me the first female nominee to this important 
position, the President has shown great confidence in my 
liabilities. I am humbled and honored by his confidence.
    If confirmed, I give you my commitment for clear and 
frequent communications, my strong resolve to make GSA, now and 
for the future, the premier source of cost-effective, timely, 
and compliant government management and government procurement.
    Thank you, Madam Chairman. Thank you, Members of the 
Committee. I am ready to answer any questions you may have.
    Chairman Collins. Thank you for your statement.
    We will begin the questioning this afternoon with standard 
questions that we ask of all nominees, and there are three of 
these.
    First, is there anything you are aware of in your 
background which might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Ms. Doan. No, Senator.
    Chairman Collins. Second, do you know of anything personal 
or otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities of this office?
    Ms. Doan. No.
    Chairman Collins. And third, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted Committee of Congress if 
you are confirmed?
    Ms. Doan. Yes.
    Chairman Collins. You got those right. Now we can proceed 
to the more substantive questions.
    On a recent scorecard that is associated with the 
President's Management Agenda, the GSA received an 
unsatisfactory, or ``red'' rating, in the category of financial 
performance. This is particularly troubling because GSA should 
be setting the standard for many other agencies.
    Similarly, both the GAO and the GSA's Inspector General 
have identified long-standing management problems that hamper 
GSA's ability to accomplish its mission. In a recent report to 
Congress, the IG identified more than $682 million in financial 
recommendations on how GSA's funds could be put to better use.
    So, on the one hand, you have OMB giving a ``F'' 
essentially to GSA for financial performance. On the other, you 
have the IG identifying almost $700 million worth of 
recommendations on funding that could be put to better use.
    These are troubling indicators as far as the efficiency 
with which the GSA operates. What would you do to try to 
improve financial management at the Agency?
    Ms. Doan. I agree with you, Senator Collins, these are 
troubling matters, indeed. As you know, I am an entrepreneur. 
And as a business owner, having clean financials is absolutely 
essential to knowing and having control over the future of your 
business. And GSA is no different. If I am confirmed, I am 
absolutely committed to getting a clean audit for GSA.
    In business, but at GSA it is the same, transparency and 
accountability are absolutely essential. They form the twin 
pillars that are required for any high-performance 
organization. This is my goal for GSA, if I am confirmed, to 
have transparency in its financial management processes, to 
exercise internal controls that are visible to all and 
understandable, and to provide clear guidance so that this will 
not happen again.
    As far as on a step-by-step basis, this is an area where I 
was very happy actually to hear that the IG found that there 
was almost $700 million of improvements and economies of scale 
that could be implemented because I think that is one of the 
first ways to make sure that GSA runs in the black in the 
future.
    Chairman Collins. Thank you.
    The GSA also plays a central role in government 
procurement. It has the expertise to manage large-scale 
government contracts that apply to all agencies, 
telecommunications for example. And other agencies look to GSA, 
as well as to the office of Federal Procurement Policy, for 
leadership on procurement issues.
    The GSA also is responsible for helping to ensure the 
integrity of the government procurement system. It maintains 
the list of government contractors who have been either 
suspended or debarred from doing business with the Federal 
Government due to convictions, for example, or other serious 
problems.
    Yet our Committee has found over the years that the GSA has 
not been as aggressive in taking action against contractors 
that lack integrity in order to protect the taxpayer.
    For example, we found that it was only after the Office of 
Management and Budget referred the matter to GSA that GSA acted 
to prevent Andersen Accounting, the old Arthur Andersen, and 
Enron from receiving government contracts. What will you do to 
ensure that GSA aggressively protects the integrity of the 
procurement system by taking action against dishonest 
contractors?
    Ms. Doan. It is actually quite simple. The FAR already has 
it written in there what GSA has to do. It simply says that you 
are not allowed to award contracts to contractors who have not 
performed well or corresponded to all of the rules and 
requirements of any kind of procurement.
    So if you look at that, it is a very simple thing. If it is 
the law, and it is, that you pay your taxes, if it is the law 
that if you are suspended or debarred you are not allowed to be 
awarded another contract, then that is exactly, if I am 
confirmed, what GSA will do. We will enforce that law. I think 
it is important that GSA lead by example. I think, as the 
premier government agency in procurement, I think we have an 
important responsibility to take on that leadership position.
    And I actually think it is a very simple database exercise 
to link the two sets of information.
    Chairman Collins. Thank you. Senator Pryor.
    Senator Pryor. Thank you, Madam Chairman.
    I would like to ask how you perceive the working 
relationship to be between GSA and Federal agencies?
    Ms. Doan. That is a big question.
    Of course, when I am speaking, initially I am speaking as a 
former customer of GSA, having worked with them for 10 years.
    Senator Pryor. You come in with a good perspective on that. 
That is one reason I ask.
    Ms. Doan. Thank you. And at the same time I have had the 
opportunity in the last month or two to meet with various 
senior management at GSA and try to understand things from 
their perspective. I think it is an interesting and hopeful 
picture.
    On the one hand, GSA provides a valuable service currently 
to many government agencies. It is that extended arm of their 
contracting shop that allows them to have cost savings and to 
focus on that particular agency's core competencies. It is also 
an incredible tool near the end of the fiscal year for managing 
dollars and ensuring that procurements for valued and important 
goods and services occur at that time.
    At the same time--that is on the good side. On the bad 
side, GSA, as I said before, has some fence-mending to do. 
Several of GSA's largest customers are, to use a Southern word, 
they are vexed with GSA. They are not happy with the 
procurement practices. They are not happy perhaps with the 
timeliness and the delivery of service.
    What I believe is that GSA, in the role of fence-mending, 
must go forward. If I am confirmed this is what I would do--I 
would go to these customers. Service is the premier element of 
any superior success story within business, and it is no 
different with GSA. It is important for us to return that 
service to the customer service and to General Services 
Administration.
    So I would like, if I am confirmed, to go to these 
important Federal customers who are concerned with GSA's 
performance, understand from them what their concerns are and 
what GSA needs to do to improve.
    At the same time, back at GSA, I think it is important to 
put in place quantitative metrics that measure performance, 
that say is GSA faster in delivering, and quantifiably faster. 
Not just some subjective thing but objectively is GSA faster in 
delivering its contracts? Are these contracts cheaper when we 
deliver them? And I do not mean just front-end costs. I am 
talking about a TQM approach where you look at the total life 
cycle cost of making that particular award.
    And third, what is the level of customer satisfaction? Did 
GSA and its vendors deliver what was required in a timely 
manner for the cost that was agreed upon?
    And if GSA can make the case that it is doing it better 
quantifiably, faster quantifiably, and cheaper than the other 
government agency then I would assume that in an effort to save 
taxpayer dollars we will have a rapprochement between these 
Federal agencies and GSA. We will gain their confidence and 
trust, and we will continue to work hard to ensure that we 
continue to have their business.
    Senator Pryor. Let me ask about the fence-mending. It 
sounds like I know the answer to this question, but I just want 
to make sure. You talked about fence-mending with your 
customers. Do you see that as mostly a public relations issue, 
where you just need to have better communication with them? Or 
as more of a substantive challenge?
    Ms. Doan. Well first I have to tell you, I did not mention 
in by earlier talk, but I am sure a good deal of groveling will 
be involved. And I am prepared to do that.
    I do not hold with a lot of whitewashing and PR stuff. That 
never works. I am more of a substantive person. I think it is a 
lot easier if you just have people tell you what exactly is the 
problem and then you go about fixing it.
    But more importantly for long-term success in an 
organization you cannot just spend all your time putting out 
fires and fixing problems. You have to actually prevent it from 
happening in the first place. And that is what you get from 
knowing your customer. It is absolutely critical that you have 
face time with your customer, that you spend time with them 
understanding what their mission is that they are trying to 
accomplish and how GSA can assist them in meeting that goal.
    Senator Pryor. So in other words, when your customers tell 
you that GSA is too slow and too expensive and it is just not 
performing well, you will take that to heart and you will try 
to implement policies and new approaches to try to solve all 
those things?
    Ms. Doan. No, sir. What I will do is say slower is not 
sufficient. How many days did it take to make that procurement? 
If it took 30 days to make it, then we will start working step-
by-step to make it faster. Our first goal would be to make it 
28 days and then 26 days and then get it within a time frame 
that would work.
    If the cost is something--if there is a number that they 
are trying to hit, then what we are going to do is shop around 
and try to find a cost that can meet what they have.
    If it is something where there is enhanced services built 
into that, then GSA has an important role that it would play in 
negotiating between the vendor providing the service and the 
customer, the end customer there.
    But I believe in actually quantifying it rather than just 
saying better, faster, cheaper.
    Senator Pryor. OK, that is fair enough.
    You also mentioned that GSA performs an adjunct purpose as 
compared to Federal agencies. You help them with procurement.
    Does GSA have an annual process in which they demonstrate 
how much GSA has saved the taxpayer over time? In other words, 
by contacting through GSA you actually save the taxpayer money? 
Rather than having the Federal agencies do it all 
independently?
    Ms. Doan. I have seen some data on that, Senator. And 
truthfully it is really fluffy. That is not how I would like to 
do business if I am confirmed at GSA. What I would like to do 
is be able to take the total volume of business that GSA does 
and actually be able to show the physical dollars saved and 
show that amount as a percentage of the total revenue that GSA 
incurred and pass that information onto the customer. Because 
that is part of these quantitative metrics that I mentioned. 
And that is the way that you gain your customer's confidence 
and their assurance that GSA is being a fair and honest broker 
of their taxpayer dollars.
    Senator Pryor. Thank you, Madam Chairman.
    Chairman Collins. Thank you.
    Senator Pryor brings up a really important point about the 
relationship between GSA and its clients in the Federal 
Government. I am going to now give you an example of a very 
contentious relationship, and that is between the GSA and the 
judiciary.
    It is my understanding that the GSA plans to renegotiate 
leases on behalf of the judiciary in an attempt to respond to 
the complaints about high rental costs. The Federal judiciary 
recently completed a preliminary review of GSA's appraisals for 
16 court-occupied buildings. The court's review indicates that 
for half of these buildings GSA's employees, acting in their 
reviewer/appraiser capacity, materially altered the value 
determinations reached by the independent third-party 
appraisers.
    According to the Federal judiciary, in all eight cases the 
GSA increased the rental values for an annual rental impact for 
the courts of $22.5 million.
    Well, you can understand why this did not go over well. The 
judiciary believes that it is not being well served by the GSA 
and is already paying an inflated fee. So as part of the 
negotiation process, there was an attempt to get independent 
appraisals on eight of these buildings. GSA took a look at them 
and upped the appraisal.
    I do not expect you to comment on that specific case, since 
obviously you are not aware of it. But I do want to ask you 
what actions you would take specifically to evaluate the 
ongoing concerns expressed by the Judicial Branch about the 
cost of space that they get through GSA.
    Ms. Doan. I honor the judiciary and the work that they do. 
It is very important and it is work that I want them to focus 
on, rather than spending their time arguing about leases, 
worrying about increases in rent, and squabbling with GSA. This 
is not how we want our judiciary to spend their time.
    So it is important to me that if I am confirmed I get to 
the bottom of this issue. I think GSA has a fine commissioner, 
a new Commissioner at PBS in David Winstead. I would sit down 
with David and work very carefully to review the charges, 
review GSA's side of it to try to understand how this 
misrepresentation could have possibly come to happen, develop a 
strategic plan to ensure, of course, that it never would happen 
again.
    And then I believe that it would be my responsibility to go 
to the judiciary and meet face-to-face with them and sit down 
and work out both an explanation so that they--I do not want 
them to feel that in any way GSA has abused their trust. But if 
so, to try to regain that trust and then to work with them 
toward a happy resolution of this very puzzling and distressing 
problem.
    Chairman Collins. Thank you.
    I am going to ask that you report back to the Committee on 
this issue, assuming, as I believe I can, your confirmation, 
after a period of time because this is troubling to me and it 
is something that I hear about directly from judges, including 
the chief judge in Maine, all of the time. So I will ask that 
you report back to us on that.
    Ms. Doan. I would like to do that. In fact, I look forward 
to the opportunity to work very closely with you and the staff 
of the Committee on all of the different issues, but 
particularly this one.
    Chairman Collins. Let me switch to a different issue. There 
are many small businesses that would like to do business with 
the Federal Government who have valuable products and services 
to offer, but they just find it to be an impenetrable process, 
that it is just too daunting to even get your foot in the door. 
The result of that is that government loses out on high 
quality, perhaps lower cost products and services.
    Do you have any specific ideas for how we can make the 
Federal procurement process at GSA less opaque and more 
welcoming to smaller companies?
    Ms. Doan. Yes, I do. Actually, I was one of those small 
businesses 15 years ago who had enormous difficulty getting a 
GSA schedule. And that, along with many of the companies I have 
mentored over the years who had challenges is one of the 
reasons why this job is such a dream opportunity for me. It is 
a chance to really make a difference.
    I think the first thing that has to happen before you can 
educate, before you can assist the small business community, is 
GSA must understand what are the bottlenecks to awarding the 
GSA schedule?
    In other words, an application for a GSA schedule comes in 
with supplies or services and a cost and letters of supply from 
vendors. This is a very simple process. From day one when it 
comes in, clock the time that it takes to the award, establish 
what that average time frame is, and then try to understand 
where is the bottleneck along the way and why is it taking so 
long? Because as we all know, occasionally you hear the horror 
stories that it has taken 9 months to a year to get a schedule.
    At that point, work within GSA to ensure that it has both 
that transparency and a strategic plan moving forward to be 
able to cut back on the amount of time to award the schedule.
    On the other hand, GSA has a responsibility to educate and 
to work with that small business community. And I look forward 
to taking a leadership position on that and communicating 
clearly and transparently GSA's goals and requirements.
    Chairman Collins. Thank you. Senator Pryor.
    Senator Pryor. Thank you, Madam Chairman.
    I would like to visit just momentarily about the Federal 
judiciary situation. I have heard those complaints, as well.
    The first question I have is, is it GSA's practice to 
adjust the rent and actually increase rent in these Federal 
courthouses?
    I guess the reason I am asking that is because I do not 
know why the rent would ever go up in a Federal courthouse?
    Ms. Doan. I actually do not know the answer to that 
question either. But this is an important situation and it is 
one where I would like, if I am confirmed, to have the 
opportunity to investigate it fully and then report back to you 
in a very timely manner.
    Senator Pryor. That would be great. Do you understand my 
question?
    Ms. Doan. Yes, I absolutely understand your concern, 
Senator.
    Senator Pryor. For example, we built this building 20 years 
ago, 40 years ago, whatever it is. I know there is maintenance 
costs, certainly. We understand that. But if their rent is 
going up, that seems unusual.
    And the other question I have, that you may or may not 
know, is what does your Agency, what does GSA do with the rent 
money? Do they turn all of it over to the Federal Treasury? Do 
they keep a portion for maintenance? Do you know the answer to 
that?
    Ms. Doan. It is a little bit of both. Some goes into the 
building fund for maintenance on the building. Some of it is 
used in daily operations and maintenance of the building. So it 
is going, I think, to three different pots.
    But do not quote me on that, simply because I am not on the 
job yet. Although I was encouraged by the fact that you said 
you are GSA, so I thought that was a good sign. Thank you.
    But I will look into that, also.
    In fact, if I could just take one step out, Senator, what I 
think would be very helpful is to have once again transparency 
onto this issue. I would like to think that it would be helpful 
to the Committee Members, as well as to their staff, to 
understand this whole relationship between GSA, PBS, and the 
rent for the judiciary so that you would understand what the 
case is that GSA will make when it goes in front of the 
judiciary to discuss this. We will work with you, if I am 
confirmed that is, we will work with you on that.
    Senator Pryor. Thank you.
    Senator Collins, a few moments ago, asked about the so-
called red rating and the financial performance of the Agency.
    You talked about different ways that you were going to try 
to get a clean audit. You talked about transparency, you talked 
about internal controls, you talked about you giving clear 
guidance to the Agency and vision to the Agency.
    If it is warranted, will you consider doing a restructuring 
or a reorganization of the Agency?
    Ms. Doan. I think that is absolutely in the works already. 
I think when you are looking at a situation that seems to be 
facing GSA right now, you cannot just focus on any one single 
action. There is going to have to be several different actions 
occurring simultaneously to both get the clean audit and put 
GSA back in the black.
    So, for example, when you look at your financials, it is 
not just enough to say what can we do to cut costs. You also 
have to look at what can we do to increase top line growth. 
Because if GSA can regain customers' trust and increase its 
revenue and at the same time manage its expenses, it is going 
to operate better in the black, hopefully have more internal 
controls and get a clean audit.
    At the same time, it does seem to me that GSA is in the 
middle of probably the largest reorganization in its history 
because the House and the Senate approved the reorganization of 
the Federal Acquisition Service. That, in and of itself, is a 
challenge. It is a challenge that I am looking forward to 
because GSA has an opportunity, once again, to lead by example.
    Reorganizations are very gnarly things. There has been a 
lot of opportunity to see how they are done poorly. I would 
like to see GSA have a strategic plan that is put in place to 
implement it in a very streamlined and efficient way that also 
has accountability both in its financial practices as well as 
in its personnel management.
    Senator Pryor. Let me ask, if I may, your perception. 
Again, you have been on the outside looking in. You now are 
looking at taking over this Agency. Is the GSA appropriately 
using its purchasing power as the Federal Government? In other 
words, are you negotiating discounts for buying bulk, etc.?
    Ms. Doan. From what I can see GSA is doing, I would say, a 
good job. I do not want to say great because I do not have any 
clarity or visibility into the total inner workings.
    On the other hand, what I know from business is there is no 
single business process that cannot be improved. And so I 
believe it is something that requires continuous review and 
analysis of where GSA is at.
    I also believe that there are many economies of scale. I 
know recently the PBS service, the Public Building Service, has 
done a very good job of bundling the buying power of GSA 
together to aggregate the costs for energy and has actually 
been able to show about a 10 percent savings in the cost of 
energy that it then needs to pass on to its Federal customers.
    I think this kind of proactive and aggressive negotiating 
is going to be very important for GSA to be a success in the 
future.
    Senator Pryor. I do, too. I think that is great, and I am 
glad to hear that.
    One of the things that I have heard and you alluded to in 
one of your answers a few moment ago is that your customers 
feel like sometimes they are not getting the best price they 
could possibly get through GSA. I am curious about your view of 
that, whether that is true? Or do you think that GSA is 
negotiating the best price for its customers? Or do you think 
that the private sector can beat some of the prices that you 
offer?
    Ms. Doan. I think that is a loaded question, Senator.
    Senator Pryor. Why is that?
    Ms. Doan. Because it has so many different aspects to it. I 
think when you look at a procurement, you would have to almost 
pick up the procurement and say is this particular printer the 
best price? Or is this particular software development the best 
price? So I would not want to roll them all in a whole and say 
that everything worked as best value or not.
    What I can say is that I think GSA has an important role 
that it plays in delivering commodities to the Federal 
Government, to its other government agencies. This is an area 
where GSA, in the schedules, has shown an enormous amount of 
success.
    I think GSA also has some very complex IT procurements, for 
example, that it works on. And these are ones where what 
constitutes best value is a very multifaceted thing. I am not 
trying to avoid your question, but I would have to look at the 
procurement and say whether I felt this was one that provided 
best value.
    On the other hand, I think if, on a daily basis, you looked 
at how many contracts GSA awards, you will find that there is 
no other government agency in the United States that delivers 
as many contract awards on a daily, weekly, monthly basis as 
GSA. It truly is the premier contracting agency for the 
government, by sheer volume.
    Now the actual dollars might not be as much, given what DHS 
does and DOD does. But if you looked at the actual number of 
contracts awarded to small, minority, and large businesses, GSA 
outstrips every other government agency.
    Because of that, when you start looking at the quality of 
the procurement, you have to take into account the sheer volume 
that they also handle.
    Senator Pryor. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Warner, we are pleased 
to have you join us.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Thank you, Madam Chairman.
    I would like to pick up on that last comment. Do you 
realize you will be managing the largest real estate empire in 
the whole world? Not just the United States.
    Ms. Doan. I know.
    Senator Warner. And you approach it with great enthusiasm. 
Those of us who have been here for some time, we meet lots of 
wonderful people appointed by various presidents. But you will 
always remain, in my mind, unique for the incredible enthusiasm 
you have about leaping into this whole thing. And I think it is 
important that your family is here to be witness to this 
hearing.
    More years ago than you have been on planet Earth, I was in 
a chair getting confirmed by the Senate. And my children, their 
legs could not reach the floor. Well maybe one and not the 
other. But now they are in their 40s, and they still remember 
the day they came to a room in this building. But so much for 
that.
    And also, I am most intrigued with the Chairman's comment 
about the chief judge calling. I have one Federal District 
Court that, for the last 10 years, we have been trying to 
figure out how to remodel the courthouse because indeed the 
courthouse was put up, I think, in the 1920s. And it was 
magnificent. Old rooms, and the judges do not want to give them 
up. And we have to build the annex over here, condemn property 
to get the annex. And then they decided the security in the old 
building was not up to the standards which are required today 
in this very troubled world we are in. So it is going on year 
after year after year.
    In the meantime, justice is being meted out in this same 
small courthouse as there is an explosion of litigation in the 
community.
    So you are going to have a lot of experiences with chief 
judges, and they are unique. They are the third branch of 
government, you know, and we are a Nation proud of our 
republic, three coequal branches. You are going to have some 
interesting experiences.
    I guess my one and only question is in connection with your 
contracting and leasing, we find at the Pentagon, which is 
where the Chairman and I labor a good deal of the time, you 
have to get some competition into this thing when you go out 
and do what you can to get it. Because it is the competition, 
in my judgment, which provides for the taxpayer the best 
insurance of getting the proper expenditure of the taxpayer's 
valuable dollar.
    So I just came to look you in the face and say thank you to 
your family. Tell your mother if she gets home after 8 o'clock 
it is wrong because any decision made in the government after 8 
o'clock is usually changed the next morning. Get her home.
    Enjoy it. You are going to, I think, thrive and enjoy it.
    Ms. Doan. Thank you.
    Senator Warner. You will come back, I guess about a year 
hence, in terms of our oversight on some problem or another.
    So I thank you and your family, and I thank the 
distinguished Chairman.
    Ms. Doan. Thank you, Senator.
    Chairman Collins. Thank you, Senator Warner.
    Senator Warner has correctly reminded us all about the 
enormous real estate portfolio that you will be responsible 
for. But you are also responsible for an enormous fleet of 
vehicles, some 200,000 vehicles. I think there is a real 
opportunity here for the Federal Government to lead the way in 
purchasing hybrid vehicles and other cars and trucks, SUVs, 
that will have better mileage, which will save money for the 
taxpayers and reduce greenhouse emissions.
    This is an opportunity for the Federal Government to lead 
by example. Do you know if GSA has a program to encourage an 
evaluation of mileage standards, for example, in purchasing new 
vehicles?
    Ms. Doan. Yes. In fact, I asked about this because my 
daughter, Natalia, is very concerned about hybrid cars and 
wants everybody to buy one. So I asked at GSA what they were 
doing, and I was told three things. First, that GSA has worked 
very actively in its fuel pool to try to encourage ethanol use 
and all of the different creative ways of conserving fuel 
consumption.
    And then I was also told that GSA does indeed have some 
hybrid cars in its fleet and that while it is not a total 
commitment to it, apparently it is an ongoing relationship with 
purchasing and negotiating car purchase. Because as vehicles 
move out of the fleet and out of service, these are then 
replaced with more fuel-efficient vehicles.
    And so this is an area, I agree with you, where GSA can 
lead by example. If I am confirmed, I look forward to working 
with you and the Committee on making that a reality.
    Chairman Collins. I also want to alert you that this 
Committee has done a previous investigation of the management 
of the fleet, in cooperation with the GAO, and found a lot of 
problems in that area as well. So I think you are going to have 
your hands full.
    I want to switch to a couple of other issues in my final 
questions. One has to do with the security of Federal 
buildings. Following the bombing of the Alfred P. Murrah 
Federal Building in Oklahoma City in 1995, as well as the 
attacks on our country on September 11, the Federal Government 
is appropriately beefing up security at Federal buildings.
    Often times this initially has meant putting in place 
temporary measures, such as those ugly concrete barriers known 
as Jersey barriers. And what many of us thought would be 
temporary too often has proven to be a permanent means and an 
ugly means of securing a Federal building.
    I have two concerns about this. One is that when you put a 
lot of Jersey barriers in front of a building, you are taking 
away from the sense of openness and accessibility that a 
Federal building should have toward its citizens.
    Second is the appearance. I recently met with some 
landscape architects who showed me various ways that buildings 
could be made secure but in a more pleasing manner and in a 
manner that does not send a citizens-need-not-come-in message.
    This is an issue that I would encourage you to look at and 
to work with organizations such as the landscape architects 
organization to see if there is a better way to ensure good 
security without putting up barriers that send the wrong 
message as far as people wanting to do business with the 
Federal Government.
    Would you agree to take a look at that issue?
    Ms. Doan. I would agree to take a look at it and I would be 
delighted to because there are so many new innovations that 
have come out to make attractive barriers that can actually be 
part of the architectural visage in front of a building and 
that will actually create a welcoming space. Because this is 
America and we do welcome with open arms. And I think that 
should be translated into all of our Federal buildings.
    So I will be happy to work on this if I am confirmed and 
report back to the Committee with various findings.
    Chairman Collins. That would be very helpful.
    Finally, I want to mention legislation that I introduced 
with all of the women senators that would direct the GSA to 
enter into an agreement to make the Pavilion Annex in 
Washington, DC, available for the establishment of a National 
Women's History Museum. I want to make clear that we are not 
seeking Federal funds for this museum. The museum would be 
privately financed.
    The legislation passed the Senate by unanimous consent last 
November. It is now pending in the House. The legislation would 
allow for the long overdue development of part of the Old Post 
Office Building on Pennsylvania Avenue that the organization 
that is advocating for the National Women's History Museum has 
long been pushing.
    The pace of redevelopment of the Old Post Office Annex has 
been glacial. Actually, it is slower than glacial because 
glaciers do move and GSA, when it comes to this museum, does 
not.
    There is an existence of a willing tenant that is prepared 
to enter into a lease agreement. That tenant is the National 
Women's History Museum organization. I want to encourage you to 
take a look at this issue. It has been pending for years. 
Meanwhile, the Annex continues to be vacant. I really think 
there is a good solution here and it is one that the full 
Senate has endorsed.
    Will you take a look at finding out why this bottleneck 
exists and what can be done to encourage the GSA to begin 
receiving revenue from a portion of this unused space? This is 
typical of a problem that we mentioned earlier, with the lack 
of management or mismanagement of the real property that GSA 
owns or oversees. I do hope you will take a close look at this 
issue.
    Ms. Doan. I would be happy to do it. It would be a great 
privilege. And as you could probably tell from my bio, I have 
spent a lifetime in my professional career advocating on behalf 
of women because of the incredible role that women have played 
in the past in our country and the things that they have done 
to make it possible for someone like me to even be sitting here 
today as the nominee. And I really honor that commitment and 
that dedication that the women who have come before us have 
done.
    So it would be my greatest privilege to work with you on 
this matter.
    Chairman Collins. Thank you. And if you can clear up this 
obstacle, I have a feeling that there will be a picture of you 
in this museum. So there is extra incentive.
    Ms. Doan. If nothing else, I would love to have my girls 
come to the opening of the museum when it happens.
    Chairman Collins. That would be exciting. Thank you. 
Senator Pryor.
    Senator Pryor. Thank you, Madam Chairman.
    I noticed in The Washington Post, I guess it was this 
morning, ``Falling Revenue Prompts GSA to Offer Buyouts.'' Did 
you see that story?
    Ms. Doan. Yes.
    Senator Pryor. Is there anything, in your understanding of 
the situation, is there anything that is inaccurate in the 
story? Any facts they got wrong?
    Ms. Doan. I do not think there is anything truly 
inaccurate, but it was a little bit skewed because it painted 
an incredibly dismal picture for the future of GSA. And I do 
not believe that is the impression that the American people 
should have been left with, that this is an Agency in total 
disarray.
    This is an agency that has its challenges. I am an 
entrepreneur. And when I look at it I say this is a turnaround. 
It has a good product. It has a good service. It has an 
important role that it plays for the American people and 
government. And it has great employees who are committed to the 
mission.
    But it does have its financial challenges. But it is 
nothing that cannot be fixed. That is what was lost in that 
article.
    Senator Pryor. Let me ask this on that same vein of thought 
then. I know that GSA is losing some of its most experienced 
contractors or contracting officers to retirement, right? 
Losing a number to retirement.
    First, I would like to ask you is that a bad thing?
    And second, I would like to ask what are your plans on 
trying to keep the best and the brightest there at GSA?
    Ms. Doan. I think this is a really important issue because 
retaining qualified and skilled personnel is a challenge in any 
endeavor, but especially in GSA.
    I think what I have learned in business, and I have told 
people a million times, is every employee wants to be on a 
winning team. They want to know that the work that they do, 
that the time that they spend at work, that it is time well 
spent and that it has meaning.
    And so the very first thing is to ensure that employees 
understand the important role they play in saving taxpayer 
dollars and in procurements in the Federal Government.
    At the same time, there are actually incredible tools that 
have been given to GSA to actually resolve this very problem 
that you mentioned about the contracting officers. The first of 
them is the ability to provide them with incentivized or 
retention bonuses because remember, GSA is a self-funding 
agency and it can live and die by its revenue. Which is one of 
the reasons why I am determined to make sure it gets in the 
black so that we have that ability to reward those qualified 
people.
    At the same time, the law was passed where we are allowed 
to attract back retired personnel and offer them incentives to 
come back out of retirement to provide that value-needed 
service.
    But the very last thing I think we have--if I am confirmed 
and everything, what is really important is GSA has got to lead 
by example, by serving a role in calling young people to public 
service.
    This is an important and valuable thing that they can do, 
and it is that way that we can ensure that we have that next 
generation of contracting officers so that some future nominee 
does not have to sit here and worry about where that 
contracting staff is coming from.
    And I think the way that we can do that is by offering them 
these incentives, but also another tool that is in the GSA 
toolkit was mentioned to me by Senator Akaka during our 
courtesy meeting. He was talking to me about the importance of 
the student loan repayment program.
    I immediately was excited and ran back to GSA and asked 
them, ``Does GSA have this? Are they using it?'' And they 
assured me that they had started the loan repayment program, 
that they had actually put the vehicle in place to make it 
happen.
    I do not know how familiar, Senator, you are with it. But 
it is $10,000 a year, up to $60,000, that can be paid back to 
repay student loans, not to exceed $60,000 over their lifetime 
service with the government.
    But I think this can also be an incredible incentive if it 
is encouraged and if education occurs of the student population 
out there to get young people to come to service. So it is 
bringing in new people, making sure they're mentored and 
trained and, at the same time, retaining and incentivizing and 
rewarding that existing qualified contracting personnel 
workforce.
    Senator Pryor. Great. Let me ask this question, and please 
understand the spirit with which I ask this. I am not saying 
you have done anything wrong at all, but I do want to bring it 
up.
    That is, you own stock in some companies that do have a 
significant number of government contracts. As I understand it, 
you have said that you will recuse yourself from decisions that 
may impact on those companies.
    Again, I am not saying you have done anything wrong. But 
have you considered just selling that stock and structuring 
your investments another way so that you do not have that 
potential--I am not saying you do--but a potential conflict or 
at least a potential perception of a conflict?
    Ms. Doan. I appreciate your concern, and I understand the 
spirit in which that question was asked.
    I would like to tell you that perhaps in the government, 
you are really familiar and used to the process. But for a guy 
out on the street, the first time being a nominee, the Senate 
confirmation process is an incredibly long and demanding 
process.
    I am happy to say that I worked with the Office of Ethics, 
with the Office of General Counsel, and also with the GSA 
Office of Ethics on this. They looked at that portfolio. And 
they decided that there was nothing in their structure that 
constituted even a potential conflict because these are all--
they are stocks in general mutual funds that you have no direct 
control over. So there is no way that I can directly or even 
indirectly influence.
    But because I wanted to make sure that there was not any 
kind of a perception of a conflict, what I did was, I signed a 
letter that said I am out of it. I will not take part in any 
decisionmaking that occurs with any of those particular stocks.
    But in answer to your last question, which is did I have 
any decision or opinion about whether I should remove them from 
my portfolio, I had actually offered that up right off the bat. 
I said you know what, I am not wedded to any of these, it is 
macht nichts to me. If you think we should exchange them for 
something else, I am happy to do so. And that offer still 
remains on the table.
    Senator Pryor. Thank you.
    I do have just one more observation, Madam Chairman. That 
is that, given some of the things we have talked about today, 
some of the challenges that GSA has had with the Federal 
judiciary, with small businesses and their inability to kind of 
break through--in fact, one thing we did not talk about is my 
experience with GSA because we have moved out of the Federal 
building in Little Rock because the rent was too high. Not all 
Federal offices can do that, but we could. And we negotiated 
what we feel like is a much better, higher quality, better 
location in terms of space and all of that. And for quite a bit 
cheaper at the end of the day for the taxpayer.
    But given that, I think that there is a perception that is 
probably growing that GSA is one of these nameless, faceless 
Federal bureaucracies that really does not have its act 
together.
    I am encouraged with your answers today. I think that you 
understand that. You have been on the outside looking in. You 
have seen the Agency, and you know what it is all about. I am 
encouraged that you are going to do your best to move the 
Agency in the right direction.
    So I am glad you are the nominee, and I look forward to 
working with the Chairman on this.
    Ms. Doan. I appreciate that, but could I ask a question? 
How long was that lease you just negotiated?
    Senator Pryor. I do not know. I will have to look. I think 
it was for the remainder of my term.
    Ms. Doan. Hopefully, we will be able to win that business 
back.
    Chairman Collins. And many subsequent ones.
    Ms. Doan, I thank you for appearing today.
    I want to just echo the last comment that Senator Pryor 
made because the Second District Congressman in Maine also 
moved out of the Federal building in Bangor because he found 
bigger space at a better price. Now I know a lot of our space 
is allocated according to square footage rather than the price 
per square foot. But it was the same experience.
    I personally have chosen to stay in the Federal building 
because----
    Ms. Doan. Thank you.
    Chairman Collins [continuing]. It puts us where the other 
agencies are and there are certain advantages to that. But I 
think there is a real cautionary tale for GSA if Members of 
Congress and the judiciary, as we have already discussed, are 
finding that GSA is not giving them a good enough value.
    I think you do have your work cut out for you.
    I have a few more questions, but I am going to submit them 
for the record. One involves an issue that the City of Bangor, 
Maine has asked that I bring to your attention, and we will 
submit that for the record.
    Without objection, the record will be kept open until 5 
p.m. tomorrow for the submission of any additional questions or 
statements for the record. The more quickly you can respond to 
those questions, the sooner we will be able to act on your 
nomination.
    I do want to echo the comments of my colleagues today about 
your experience and your enthusiasm. I think you bring exactly 
the skills and the determination that GSA needs, and I think 
that we are lucky you have agreed to serve. I am optimistic 
that you will be confirmed promptly, and I look forward to 
working with Senator Pryor and the rest of my colleagues toward 
that goal.
    Ms. Doan. Thank you so much. And thank you, Members of the 
Committee. And thank you, Committee staff. I really appreciate 
all of their encouragement and support, even with this long 
question and answer period.
    Chairman Collins. Thank you.
    This hearing is now adjourned.
    [Whereupon, at 3:17 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

                PREPARED STATEMENT OF SENATOR LIEBERMAN

    Thank you, Madam Chairman and welcome Ms. Doan. Ms. Doan has been 
nominated to serve as Administrator of the General Services 
Administration (GSA) at a critical time for the agency. The procurement 
services GSA provides are central to the day-to-day operations of many 
government departments and its management of Federal property can 
substantially impact savings for taxpayers. But GSA is grappling with a 
range of challenges, not the least of which is a major consolidation of 
operations. This is a trying time for the agency, and the new 
Administrator must have solid managerial experience and the ability to 
think creatively for the future.
    As it struggles to emerge from difficulties with contract 
management and lack of project oversight, GSA must also deal with 
declining revenues, poor morale, the need for better financial 
controls, and low customer confidence. There is very little room for 
error for the new Administrator.
    The merger of the Federal Supply Service (FSS) and the Federal 
Technology Service (FTS) into the Federal Acquisition Service (FAS) is 
designed to strengthen GSA's ability to provide efficient acquisition 
services. In the short term, though, the reorganization, coupled with 
recent declines in GSA's information technology business, has 
necessitated a downsizing of personnel, which the agency fortunately 
will be able to accomplish through voluntary buy-outs and early outs. I 
appreciate that the Federal employee unions representing GSA workers 
have worked with the agency to help bring greater efficiencies to the 
workplace while respecting the rights of employees.
    The Administrator will need to oversee what will surely be a 
difficult transition for GSA employees and at the same time ensure that 
financial and management controls for the new service are up and 
running properly. The ongoing reorganization of GSA's regional offices 
raises similar management challenges.
    Recent turnover in GSA's leadership and among the ranks make these 
operational changes that much more difficult. Former Administrator 
Stephen Perry resigned last year and many mid-level managers have left, 
as well. This exodus has added to the delays and confusion surrounding 
the agency's ongoing reorganization and other efforts to improve 
services. The new Administrator will have to attract new talent for the 
challenges ahead while at the same time work to boost the morale of 
loyal rank and file employees whose work lives will be disrupted by the 
coming changes.
    GSA has been updating its inventory of property to ensure it knows 
what it has and to rid itself of property with little or no use. For a 
number of years, the Government Accountability Office has ranked GSA's 
real property management on its biannual high-risk list. Although the 
agency is making strides, the new Administrator must continue to ensure 
that the agency's property inventory is up to date and in full use. GSA 
is also responsible for complying with laws such as Title V of the 
McKinney-Vento Homeless Assistance Act, which directs Federal agencies 
to make surplus property available at no cost to nonprofit 
organizations or government agencies that intend to serve the homeless. 
In recent years, critics have called into question the agency's 
commitment to and compliance with this law because of alleged non 
responsiveness and poor cooperation with prospective owners. The GSA 
Administrator must address this issue, too, and ensure that GSA 
operates in good faith, particularly with respect to its 
responsibilities toward society's disenfranchised.
    I am impressed by Ms. Doan's credentials as a business entrepreneur 
and she has had a successful working relationship, on the contracting 
end, with GSA, all of which should serve her well. I appreciate her 
statement in her written responses to the Committee's pre-hearing 
questions that if confirmed she will perform her duties with 
innovation, energy, and integrity. Indeed, if confirmed, she will face 
monumental challenges that will require every ounce of innovation and 
energy she has. I look forward to hearing her views on how she will 
address the many challenges GSA faces ahead. Thank you.

[GRAPHIC] [TIFF OMITTED] T8248.001

[GRAPHIC] [TIFF OMITTED] T8248.002

[GRAPHIC] [TIFF OMITTED] T8248.003

[GRAPHIC] [TIFF OMITTED] T8248.004

[GRAPHIC] [TIFF OMITTED] T8248.005

[GRAPHIC] [TIFF OMITTED] T8248.006

[GRAPHIC] [TIFF OMITTED] T8248.007

[GRAPHIC] [TIFF OMITTED] T8248.008

[GRAPHIC] [TIFF OMITTED] T8248.009

[GRAPHIC] [TIFF OMITTED] T8248.010

[GRAPHIC] [TIFF OMITTED] T8248.011

[GRAPHIC] [TIFF OMITTED] T8248.012

[GRAPHIC] [TIFF OMITTED] T8248.013

[GRAPHIC] [TIFF OMITTED] T8248.014

[GRAPHIC] [TIFF OMITTED] T8248.015

[GRAPHIC] [TIFF OMITTED] T8248.016

[GRAPHIC] [TIFF OMITTED] T8248.017

[GRAPHIC] [TIFF OMITTED] T8248.018

[GRAPHIC] [TIFF OMITTED] T8248.019

[GRAPHIC] [TIFF OMITTED] T8248.020

[GRAPHIC] [TIFF OMITTED] T8248.021

[GRAPHIC] [TIFF OMITTED] T8248.022

[GRAPHIC] [TIFF OMITTED] T8248.023

[GRAPHIC] [TIFF OMITTED] T8248.024

[GRAPHIC] [TIFF OMITTED] T8248.025

[GRAPHIC] [TIFF OMITTED] T8248.026

[GRAPHIC] [TIFF OMITTED] T8248.027

[GRAPHIC] [TIFF OMITTED] T8248.028

[GRAPHIC] [TIFF OMITTED] T8248.029

[GRAPHIC] [TIFF OMITTED] T8248.030

[GRAPHIC] [TIFF OMITTED] T8248.031

[GRAPHIC] [TIFF OMITTED] T8248.032

[GRAPHIC] [TIFF OMITTED] T8248.033

[GRAPHIC] [TIFF OMITTED] T8248.034

[GRAPHIC] [TIFF OMITTED] T8248.035

[GRAPHIC] [TIFF OMITTED] T8248.036

[GRAPHIC] [TIFF OMITTED] T8248.037

[GRAPHIC] [TIFF OMITTED] T8248.038

[GRAPHIC] [TIFF OMITTED] T8248.039

[GRAPHIC] [TIFF OMITTED] T8248.040

[GRAPHIC] [TIFF OMITTED] T8248.041

[GRAPHIC] [TIFF OMITTED] T8248.042

[GRAPHIC] [TIFF OMITTED] T8248.043

[GRAPHIC] [TIFF OMITTED] T8248.044

[GRAPHIC] [TIFF OMITTED] T8248.045

[GRAPHIC] [TIFF OMITTED] T8248.046

                                 <all>

</pre></body></html>
